FOLLOW-UP ON AUDIT REPORT: ACTIONS TAKEN
  TO RECOVER EXCESS RESERVES FROM THE
 CENTRAL ARTERY/TUNNEL PROJECT’S OWNER
     CONTROLLED INSURANCE PROGRAM
     FEDERAL HIGHWAY ADMINISTRATION

        Report Number: QR-2003-089
       Date Issued: September 30, 2003
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Follow-up on Audit Report:                             Date:      September 30, 2003
           Actions Taken to Recover Excess Reserves From the
           Central Artery/Tunnel Project’s Owner Controlled
           Insurance Program, Federal Highway Administration
           QR-2003-089

           Alexis M. Stefani                                                   Reply to
  From:                                                                                   JA-40
                                                                               Attn of:
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Highway Administrator

           We performed a follow-up review of the Federal Highway Administration’s
           (FHWA’s) implementation of recommendations from our report, “Actions Taken
           to Recover Excess Reserves From the Central Artery/Tunnel Project’s Owner
           Controlled Insurance Program,” IN-2002-095, July 22, 2002, and found that
           FHWA fully implemented the report’s recommendations. Accordingly, we
           consider the report closed in accordance with Department of Transportation
           Order 8000.1C.

           In May 1999, we reported that the Central Artery/Tunnel Project (Project) had
           used Federal funds to overfund its Owner Controlled Insurance Program (OCIP).1
           FHWA agreed to recover the excess reserves and implement a policy to prevent
           future occurrences. On September 30, 1999, Congress directed the Secretary to
           issue    guidance    to    prevent   other    transportation   projects  from
           overfunding OCIPs. Congress also directed the Inspector General to monitor the
           implementation of FHWA’s planned actions related to the Project’s insurance
           program.

           In response to this direction, in 2002, we performed a follow-up audit to determine
           whether FHWA implemented appropriate corrective action. In July 2002, we
           reported that the Project used $153 million ($138 million Federal share) of excess
           1
               Report on “Overpayment of Premiums for the Central Artery Project’s Owner Controlled Insurance
               Program,” TR-1999-104, May 24, 1999.
                                                                                   2

reserves to offset current premiums. We also reported that the Project withdrew
$50 million from the OCIP Trust and returned the funds to the State’s Federal-aid
account. However, during the July 2002 follow-up audit, we found that an
additional $133 million in excess Federal funds remained in the OCIP, and the
Project needed to complete an ongoing independent audit of the OCIP trust
accounts. We also recommended that FHWA cease Federal participation in the
OCIP and issue final OCIP guidelines.

As a result of the July 2002 follow-up audit, the Project transferred
$133 million from the OCIP, and FHWA issued final OCIP guidance. In response
to our recommendation to cease Federal participation in the OCIP, the Project
transferred an additional $140 million from the Federal share of the OCIP budget
to the Federal share of the Project’s construction budget. The total transfer of
$273 million was completed by May 2003, using the results of the Pannell Kerr
Forster PC (PKF) independent audit.

PKF audited the Project’s OCIP basic financial statements for the year ended
June 30, 2002. In its report, PKF rendered an unqualified opinion on the Project’s
basic financial statements. We performed a quality control review of the audit
work and determined that it complied with Government Auditing Standards.

During our current follow-up, we reviewed PKF’s audit and verified that Federal
amounts transferred between the Project’s OCIP and Construction budget
categories were recorded in the Massachusetts Highway Department and FHWA
accounting records. In addition, the Massachusetts Office of the Comptroller
confirmed the transfers. Therefore, we found the total OCIP Federal share of
$273 million transferred to the Project’s construction budget for better use to be
appropriate.

Recently, Deloitte & Touche LLP (D&T) questioned the likelihood that the
Project would achieve a $20.5 million potential savings in insurance costs, as
identified in the Project’s latest cost and schedule update. The potential savings in
insurance costs were primarily projected reductions in Workers Compensation and
General Liability insurance costs that are included in the OCIP Trust. D&T
concluded, in any event, that the potential savings in insurance costs do not affect
its conclusion regarding the adequacy of the Project’s latest budget. Project
officials said the decision to reduce insurance costs was based on recent actuarial
projections and favorable accident and loss trends.

Since the OCIP is now funded entirely with State funds, the State does not seek
reimbursement of Federal funds for OCIP and FHWA no longer will participate in
OCIP costs. Therefore, the issue raised by D&T has no bearing on the
$273 million Federal share of the OCIP budget that was transferred to the Federal
                                                                                  3

share of the Project’s construction budget. Because the amount of insurance costs
and the amount of contingencies are part of the Project’s Fiscal Year 2003 Finance
Plan, we will review the basis for these costs in our review of the Plan, which is
required by the Department of Transportation and Related Agencies
Appropriations Act for Fiscal Year 2001.

We appreciate the cooperation and assistance of FHWA. If we can answer any
questions, or be of further assistance, please feel free to contact me at (202) 366-
1992, or Debra S. Ritt, Assistant Inspector General for Surface and Maritime
Programs, at (202) 493-0331.

                                        #

cc: FHWA Executive Director, HOA-3
    FHWA Audit Liaison, HAIM-13
    OST Audit Liaison, M-1
